TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Clarity of Math Error Notices Has
                      Improved, but Further Changes Could
                       Enhance Notice Clarity and Reduce
                              Unnecessary Notices



                                         September 2005

                              Reference Number: 2005-30-154




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Web Site          | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY

                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 28, 2005


MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



FROM:                           Pamela J. Gardiner
                                Deputy Inspector General for Audit

SUBJECT:                        Final Audit Report – The Clarity of Math Error Notices Has Improved,
                                but Further Changes Could Enhance Notice Clarity and Reduce
                                Unnecessary Notices (Audit # 200530004)

This report presents the results of our review to determine whether changes the Internal Revenue
Service (IRS) is making to the math error process are having a positive effect on compliance by
clearly communicating errors to taxpayers, including clearly explaining their appeal rights.

Synopsis
Annually, the IRS sends over 7 million math error notices to taxpayers that make mistakes on tax
returns. In 2002 and 2003, the IRS’ Taxpayer Advocate reported concerns that the explanations
in math error notices were confusing and inadequate. Another concern of the Taxpayer
Advocate was that taxpayers did not understand their rights to challenge math error adjustments.
To address concerns regarding the math error process, the IRS developed initiatives to redesign
notices and improve their clarity, and to simplify procedures for employees to choose the correct
notice to correspond to a particular taxpayer’s situation.
We reviewed revised notices issued to taxpayers filing individual and business income tax
returns.1 We also performed analyses of steps taken by employees in the IRS Error Resolution
function to resolve errors on certain high volume business and individual tax returns.
The IRS’ notice redesign efforts have generally been effective. On most of the revised notices,
the IRS provided bold headings with easily identifiable answers to questions such as why the
taxpayers received the notices and what they needed to do if they disagreed with the IRS’


1
    We also reviewed unrevised notices issued to business taxpayers.
                       The Clarity of Math Error Notices Has Improved, but Further
                           Changes Could Enhance Notice Clarity and Reduce
                                          Unnecessary Notices


changes. Narrative explanations of the taxpayers’ errors were usually specific enough to allow
them to identify the problems on their returns. However, further improvements could be made to
enhance the clarity and usefulness of notices and reduce unnecessary notices.

Individual taxpayers
Revised notices issued to taxpayers filing individual income tax returns contained statements in
table form comparing the taxpayers’ figures with IRS’ revised figures. However, these
comparisons were shown for only a few summary items and were too general to be of significant
use to taxpayers. In addition, the overall formatting and information in the notice referred to as
Computer Paragraph 162 was much less effective than the information on other notices.
We found that because of a problem with instructions on U.S. Individual Income Tax Returns
(Forms 1040 and 1040A) regarding which figures taxpayers should include to calculate
amounts they owe on their tax returns, taxpayers received unnecessary math error notices. As of
June 3, 2005, over 3,200 taxpayers, who performed the calculation exactly as instructed on their
Tax Year 2004 returns, received notices telling them they had calculated the amounts incorrectly.
In the prior year, over 8,000 taxpayers received the same inappropriate notice.

Business taxpayers
Math error notices issued to taxpayers filing several different business tax returns3 still have not
been revised. We are not commenting on the presentation of these notices, but we believe that
immediate interim changes should be made to ensure these taxpayers clearly understand their
rights to appeal math error adjustments. Further, certain notices issued to nonprofit
organizations contained inaccurate references to lines on tax returns and other spelling and
capitalization errors. Immediately after we notified the IRS of the inaccurate references to line
items on the returns, IRS management initiated corrective action to address the issue.
We also found while IRS employees properly resolved most taxpayer errors, IRS employee
errors could result in inappropriate notices being sent to many taxpayers filing Employer’s
Annual Federal Unemployment (FUTA) Tax Return (Forms 940).




2
  This is the notice sent to individual taxpayers with math errors on their tax returns if the return resulted or should
have resulted in an overpayment of tax and all or part of the overpayment was used to offset a tax liability from a
different tax period.
3
  Includes U.S. Corporation Income Tax Return (Form 1120), U.S. Income Tax Return for Estates and Trusts
(Form 1041), Farmers’ Cooperative Association Income Tax Return (Form 990-C), and Exempt Organization
Business Income Tax Return (Form 990-T).
                                                                                                                           2
                      The Clarity of Math Error Notices Has Improved, but Further
                          Changes Could Enhance Notice Clarity and Reduce
                                         Unnecessary Notices



Recommendations
We recommended the Director, Customer Account Services, Wage and Investment (W&I)
Division, review the process for revising notices to ensure notices are accurate and consistently
formatted, and take actions to address specific problems with the notices referred to in our report.
We also recommended the Director, Tax Forms and Publications, W&I Division, add text to
Forms 1040 and 1040A instructing taxpayers to include the amount of their estimated tax penalty
(if any) when computing the amount they owe with their tax return. The Director should also
consider reversing the order in which these two items are presented on the Forms. Until the text
is added, we recommended that employees in the Error Resolution function perform research and
suppress unnecessary math error notices caused by the problems with the instructions on the
Forms. Finally, we recommended the Director, Submission Processing, Customer Account
Services, W&I Division, provide specific instructions and training to Error Resolution function
quality review employees and tax examiners regarding the appropriate notices to be sent to
taxpayers making errors on Forms 940.

Response
IRS management agreed with six of our eight recommendations. Accordingly, the IRS initiated
a new procedure to facilitate review of revised notices. The Director, Submission Processing,
W&I Division, and the Director, Customer Assistance, Relationships, and Education, W&I
Division, will determine the feasibility of expanding existing Taxpayer Notice Codes4 to allow
greater specificity in the explanation of errors. They will study the possibility of adding
additional lines from the Form 1040 payment section to the tax statement table on math error
notices. These Directors also agreed to make revisions (or have already made revisions) to
specific notices referred to in our report.
IRS management disagreed with two of our recommendations. IRS management did not agree to
make changes to Forms 1040 and 1040A, stating there is not sufficient room to add text from the
instructions for Line 74 to the front of Form 1040 to advise taxpayers to include the estimated
tax penalty from Line 75. The additional instructions would force a reduction in the font size of
the reference on “how to pay,” a message impacting a much larger number of taxpayers than
those computing the estimated tax penalty. In addition, management believes that reversing the
line order would be counterproductive, resulting in increased confusion for many Form 1040 and
Form 1040A filers who do not calculate their estimated tax penalty. Management added that the
affected taxpayers would not have received unnecessary notices if they had properly followed
the instructions contained in the instruction booklets. Also, IRS management stated that


4
 The information to be included in a math error notice issued to a taxpayer is determined by a Taxpayer Notice
Code entered by an IRS employee into its Error Resolution System.
                                                                                                                 3
                   The Clarity of Math Error Notices Has Improved, but Further
                       Changes Could Enhance Notice Clarity and Reduce
                                      Unnecessary Notices


requiring research by Error Resolution employees is not practical due to the additional cost in
both processing time and labor. However, the Director, Submission Processing, W&I Division,
will explore the possibility of establishing a systemic solution in the IRS’ computer routines that
will suppress the notice when a taxpayer actually paid the proper amount of tax, including the
estimated tax penalty. Management’s complete response to the draft report is included as
Appendix VI.

Office of Audit Comment
We disagree with management’s decision to not make our recommended changes to Forms 1040
and 1040A. We believe there is sufficient room on these forms for the changes we recommend
as illustrated in Figure 4 and Appendix V of our report. We agree that, for Form 1040, the font
size of the reference on “how to pay” would need to be reduced or changed. However, reduced
font sizes are used elsewhere on the Form 1040. For example, there are reduced font sizes on
lines 24, 38b, and 69 and for the statement on the signature line (jurat statement).
Regarding management’s disagreement with our recommendation to ensure Error Resolution
employees perform research and suppress unnecessary math notices, we believe the alternative
corrective action proposed by management should reasonably suffice to prevent unnecessary
notices from being issued to taxpayers.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Curtis Hagan,
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-3837.




                                                                                                  4
                         The Clarity of Math Error Notices Has Improved, but Further
                             Changes Could Enhance Notice Clarity and Reduce
                                            Unnecessary Notices




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Math Error Notices Sent to Taxpayers Filing Individual Income
          Tax Returns Were Significantly Improved, but Further Improvements
          Could Be Made .............................................................................................Page 3
                    Recommendation 1:........................................................Page 8

                    Recommendations 2 through 4: ................................................ Page 9

                    Recommendation 5: .................................................................. Page 10

          Math Error Notices Sent to Many Business Taxpayers
          Need Improvement........................................................................................Page 10
                    Recommendations 6 and 7: ....................................................... Page 12

          Internal Revenue Service Employee Errors Resulted in Inappropriate
          Notices to Taxpayers Filing Forms 940........................................................Page 12
                    Recommendation 8:........................................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – The Treasury Inspector General for Tax Administration’s
          Proposed Changes to U.S. Individual Income Tax Return (Form 1040A)...Page 22
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
                        The Clarity of Math Error Notices Has Improved, but Further
                            Changes Could Enhance Notice Clarity and Reduce
                                           Unnecessary Notices




                                           Background

Taxpayer compliance can be significantly affected by how well taxpayers understand their tax
responsibilities. Noncompliance may not be deliberate and can stem from a wide range of causes
including lack of knowledge and confusion, causing taxpayers and preparers to make errors on
tax returns.
Recognizing that some errors on tax returns       In 2002 and 2003, the IRS’ Taxpayer Advocate
did not justify the expense of an audit, the      reported concerns that the explanations in
Congress authorized the Internal Revenue          the math error notices were confusing and
Service (IRS) to correct certain math errors      inadequate. Another concern of the Taxpayer
that appeared on the face of a tax return.        Advocate was that taxpayers were not sure
                                                  how to challenge the notices and did not
Initially, taxpayers had no right to appeal       understand their rights to challenge them.
these corrections. In the Tax Reform Act
of 1976,1 the Congress provided that a
taxpayer who received a math error notice had 60 days to file a request for abatement of the
assessment. The Act also codified the first five definitions of “mathematical or clerical errors” to
include:
•      An error in addition, subtraction, multiplication, and division shown on a tax return.
•      An incorrect use of an IRS table related to the return.
•      Inconsistent entries on a return.
•      Omitted information required to substantiate an entry on a return.
•      An entry that claims a deduction or credit in excess of the statutory limit.
The Congress has expanded the IRS’ math error authority over the years to include denial of
benefits for exemptions, filing status, and certain tax credits when taxpayers failed to provide
valid taxpayer identification numbers.
Annually, the IRS sends over 7 million math error notices to taxpayers for mistakes on tax
returns. When IRS computers identify an error on a taxpayer’s return, the return is routed to the
Error Resolution function and the electronic return information is sent to the Error Resolution
System (ERS). The ERS is used to correct errors made by taxpayers or IRS employees during
the initial processing of tax returns. The ERS computer assigns an error code to the return which
identifies the type of error made. An IRS employee makes changes to the return and
communicates these changes by way of an IRS notice.


1
    Pub. L. 94-455, 90 Stat. 1520.
                                                                                                Page 1
                        The Clarity of Math Error Notices Has Improved, but Further
                            Changes Could Enhance Notice Clarity and Reduce
                                           Unnecessary Notices



The information to be included in the notice is determined by a Taxpayer Notice Code (TPNC)
entered into the ERS by the employee. Each TPNC corresponds to a specifically worded
paragraph to be included in a notice. For example, if the IRS computer found the taxpayer had
made an error in computing their standard deduction, and the IRS employee determined the
taxpayer had taken both the standard deduction and itemized deduction, the IRS employee would
enter the correct information along with a TPNC 196 into the ERS. As a result, a notice would
be sent to the taxpayer stating:
      We changed the amount claimed as a deduction on Line 39 of your Form 1040.[2] You may
      use either the standard deduction or the itemized deductions; however, you cannot use both.
      We used the amount that resulted in a lower taxable income.
Notices sent to taxpayers should clearly explain the taxpayers’ errors and the changes the IRS
made to their tax returns. In 2002 and 2003, the IRS’ Taxpayer Advocate reported concerns that
the explanations in math error notices were confusing and inadequate. Another concern of the
Taxpayer Advocate was that taxpayers were not sure how to challenge the notices and did not
understand their rights to challenge them. To address concerns regarding the math error process,
the IRS developed initiatives to redesign notices and improve their clarity, to revise TPNCs and
simplify the procedures for employees to choose the correct code to correspond to a particular
taxpayer’s situation, and to resequence TPNCs to correspond to specific sections of the tax
return.
The focus of this audit was to determine whether the changes the IRS is making to these notices
are having a positive effect on compliance by clearly communicating errors to taxpayers, and
whether taxpayers are aware of their rights to challenge these notices.
This review was performed at the Cincinnati, Ohio; Fresno, California; Kansas City, Missouri;
and Ogden, Utah, Submission Processing Centers3 during the period January through May 2005.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




2
    U.S. Individual Income Tax Return.
3
    IRS Submission Processing Centers are responsible for processing tax returns and payments and issuing refunds.
                                                                                                             Page 2
                   The Clarity of Math Error Notices Has Improved, but Further
                       Changes Could Enhance Notice Clarity and Reduce
                                      Unnecessary Notices




                                Results of Review

Math Error Notices Sent to Taxpayers Filing Individual Income Tax
Returns Were Significantly Improved, but Further Improvements
Could Be Made

To determine whether the IRS’ efforts to improve notices sent to individual taxpayers were
effective, we reviewed revised notices issued to 140 taxpayers filing individual income tax
returns during 2005. The IRS’ notice redesign and training efforts have generally been effective.
On most of the revised notices we reviewed, the IRS provided bold headings with easily
identifiable answers to the following questions:
   •   Why the taxpayers received the notices.
   •   Why the IRS made changes to the returns.
   •   What the taxpayers needed to do if they agreed with the changes.
   •   What the taxpayers needed to do if they disagreed with the changes.
Narrative explanations of the taxpayers’ errors were usually specific enough to allow the
taxpayers to identify the problems on their returns. The taxpayers’ appeal rights were clearly
explained and readily identifiable on many of the notices.
However, we found the formatting of the revised notices to be inconsistent and some
improvements were needed on these notices. We believe this occurred because the notice
revisions were assigned to a variety of subject matter experts. Although the revised notices were
to be channeled through a single point of contact to ensure quality, this process did not identify
the following issues.

Tax statements

Revised notices for taxpayers filing individual income tax returns contain a statement in table
form showing taxpayers certain figures from their tax returns compared to IRS’ corrected
figures. However, these comparisons are shown for only three items: Adjusted Gross Income,
Taxable Income, and Total Tax. Because so many different lines from the tax return are factored
into these three items, the table is often of little use to taxpayers when trying to reconcile IRS’
adjustments with their originally filed tax returns.


                                                                                             Page 3
                         The Clarity of Math Error Notices Has Improved, but Further
                             Changes Could Enhance Notice Clarity and Reduce
                                            Unnecessary Notices



Further, the table shows only IRS figures for Total Payments. So if a taxpayer makes an error on
one of the items included in total payments (e.g., income tax withheld, estimated tax payments,
earned income credit, additional child tax credit, etc.), the table would not help the taxpayer see
or further understand their error and may even confuse the taxpayer.
For example, in the hypothetical situation below, a taxpayer incorrectly calculated the child tax
credit on a U.S. Individual Income Tax Return (Form 1040A). A notice informing the taxpayer
of the error would be issued and the explanation of the error would state:
       We didn’t allow part or all of your child tax credit on Line 33 and/or additional child tax
       credit on Line 42 of your Form 1040A. One or more of your children exceeds the age
       limitation.
In addition, the notice would contain the information in Figure 1.

                Figure 1: Table on Math Error Notices As Currently Formatted
                                                2004 Tax Statement4

                        Line Item On Return               Your Figures          IRS Figures

                        Adjusted Gross Income                $36,740.00           $36,740.00

                        Taxable Income                       $11,540.00            $11,540.00

                        Total Tax                                    $.00           $1,153.00

                        Total Payments                                              $3,000.00

                        Overpayment                                                 $1,847.00


Neither the narrative nor the table tells the taxpayer what the correct figures should be for the
child tax credit.
Further, with the information provided, the taxpayer cannot be sure whether he or she made an
error when calculating their additional child tax credit. Revised notices containing these
statements were issued to over 7.3 million taxpayers during Calendar Year (CY) 2004.




4
    The amounts used in Figures 1 and 2 are fictitious and are used for illustrative purposes only.
                                                                                                      Page 4
                   The Clarity of Math Error Notices Has Improved, but Further
                       Changes Could Enhance Notice Clarity and Reduce
                                      Unnecessary Notices



As illustrated in Figure 2, adding specific data from the lines on the taxpayer’s return with errors
and including both taxpayer and IRS figures for total payments could make the notice more
useful to the taxpayer.

              Figure 2: Table on Math Error Notices As Proposed by the
              Treasury Inspector General for Tax Administration (TIGTA)
                                       2004 Tax Statement

                  Line Item On Return          Your Figures      IRS Figures

                  Adjusted Gross Income           $36,740.00        $36,740.00

                  Taxable Income                  $11,540.00        $11,540.00

                  Child Tax Credit                 $1,153.00           $.00

                  Total Tax                          $.00            $1,153.00

                  Additional Child Tax
                  Credit
                                                  $1,847.00            $.00

                  Total Payments                  $4,847.00          $3,000.00

                  Overpayment                                        $1,847.00


A significant amount of computer programming would be required to make all the lines on
the taxpayer’s return available for inclusion in the table on the math error notice. However,
by focusing on several high volume errors, the IRS could make math error notices more
useful to many taxpayers by adding information from relatively few lines. For example,
2,242,625 taxpayers made errors related to the earned income credit, child tax credit, and
additional child tax credit during CY 2004. By adding information to the notice from these four
lines of the tax return (as appropriate) the IRS could make math error notices significantly more
useful to similar numbers of taxpayers in the future.




                                                                                              Page 5
                       The Clarity of Math Error Notices Has Improved, but Further
                           Changes Could Enhance Notice Clarity and Reduce
                                          Unnecessary Notices



Computer Paragraph 16

Computer Paragraph (CP) 16 is the notice sent to taxpayers with math errors on their Individual
Income Tax Returns if the returns resulted in (or should have resulted in) overpayments of tax
and all or part of the overpayments were used to offset liabilities from different tax periods.
We found this notice to be significantly less clear and, therefore, more burdensome than other
math error notices sent to individual taxpayers for the following reasons:
    •    Rather than providing an explanation of the changes made to the tax return on the first
         page, this notice provided the table on the first page. As previously discussed, this table
         can be confusing to taxpayers. The explanation of changes made to the tax return is on
         the second page of the notice.
    •    The notice does not provide the same clear explanation of appeal rights that the other
         notices to individual taxpayers provide.
During CY 2004, the IRS issued CP 16 to over 300,000 taxpayers.

TPNC 299

Many taxpayers who calculated their own estimated tax penalties received an unnecessary and
confusing math error notice telling them they miscalculated the total balance they owed on their
tax returns.
As illustrated in Figure 3, instructions on Tax Year 2004 U.S. Individual Income Tax Return
(Form 1040), Line 74 (Amount You Owe)5 tell taxpayers to, “Subtract Line 70 (Total Payments)
from Line 62 (Total Tax).”6




5
  Identical instructions appear on Form 1040A, but the line numbers are different.
6
  The Instruction Booklet for Form 1040 Line 74 tells the taxpayer to include the amount on Line 75. However,
most taxpayers would not refer to the instruction booklet to figure out how to subtract one line from another.
Further, the design of the form, with the estimated tax line after the total tax line, makes it more unlikely that a
taxpayer would include the estimated tax in the total.
                                                                                                                 Page 6
                  The Clarity of Math Error Notices Has Improved, but Further
                      Changes Could Enhance Notice Clarity and Reduce
                                     Unnecessary Notices



   Figure 3: “Amount You Owe” Section of Form 1040 As Currently Formatted




Source: 2004 Form 1040.


However, taxpayers who follow these instructions and also enter an estimated tax penalty on the
next line (Line 75) receive a math error notice which states:
   We changed the refund amount on Line 72a or the amount you owe on Line 74 of your
   Form 1040 because the amount entered on your tax return was computed incorrectly.
This occurs because IRS computers are programmed to include the amount of the estimated tax
penalty (Line 75) in the calculation for Line 74. Taxpayers are not told, on the return itself, to
include this line in their calculation. Because the amount calculated by the IRS computer differs
from the amount calculated by the taxpayer (in accordance with instructions on the Form 1040)
the return is routed to the ERS. IRS employees resolve the issue by entering a TPNC 299 into
the ERS which causes a notice to be sent to the taxpayer with the previous statement.
The IRS has committed to eliminate unnecessary notices. By making changes to lines 74 and 75
of Form 1040 as illustrated in Figure 4 and explained below, the IRS could avoid issuing these
unnecessary and confusing notices to taxpayers:
   − Place the line for estimated tax penalty before “Amount You Owe” to make the
     calculation process easier and more logical to taxpayers.



                                                                                            Page 7
                  The Clarity of Math Error Notices Has Improved, but Further
                      Changes Could Enhance Notice Clarity and Reduce
                                     Unnecessary Notices



   − Add text to the line entitled “Amount You Owe” telling taxpayers to add the amount of
     their estimated tax penalty to the amount they owe. This line as we recommend now
     reads, “Subtract line 70 from line 62 and add line 74. For details on how to pay, see page 55.”

    Figure 4: “Amount You Owe” Section of Form 1040 As Proposed by TIGTA




Source: TIGTA’s Proposed Revisions to Form 1040.

Similar changes should be made to Form 1040A (see Appendix V).
Taxpayers received the math error notice, even if they paid the proper amount (amount of tax
owed plus estimated tax penalty). Not only did this result in taxpayer burden and confusion, but
many taxpayers most likely called the IRS unnecessarily to resolve the issue. As of
June 3, 2005, the IRS had sent these improper math error notices to over 3,200 taxpayers who
had completed their 2004 Forms 1040 and 1040A as instructed on the forms. Over 700 of these
taxpayers had their returns prepared by paid tax preparers.

Recommendations

Recommendation 1: The Director, Customer Account Services, Wage and Investment
(W&I) Division, should ensure the review process for revised notices is adequate to produce
notices that are accurate, and properly and consistently formatted.



                                                                                               Page 8
                  The Clarity of Math Error Notices Has Improved, but Further
                      Changes Could Enhance Notice Clarity and Reduce
                                     Unnecessary Notices



       Management’s Response: The IRS initiated a new procedure requiring the notice
       Subject Matter Experts and Single Point of Contact employees to jointly review revised
       notices during the Modernization and Information Technology Services organization
       Systems Acceptance Testing process to further improve the accuracy and consistency of
       the notices.
Recommendation 2: The Director, Customer Account Services, W&I Division, should revise
tax statement tables contained on notices to include specific amounts from at least some line
items on which taxpayers made errors on their tax returns. Because the computer programming
to make all line items from the tax returns available for inclusion on the notices may be resource
intensive, efforts should be focused on including line items related to very frequently occurring
errors.
       Management’s Response: The Director, Submission Processing, and the Director,
       Customer Assistance, Relationships, and Education (CARE), W&I Division, will review
       the existing TPNCs and determine the feasibility of expanding them to allow greater
       specificity in the explanation of the error. They will also study the possibility of adding
       additional lines from the Form 1040 payment section to the tax statement table on math
       error notices. Their efforts will focus on the highest volume error conditions in the
       payment and tax areas of the tax return.
Recommendation 3: The Director, Customer Account Services, W&I Division, should revise
CP 16 to present information in a manner consistent with other notices sent to individual
taxpayers including the location of the error explanation and tax statement, and the wording of
the taxpayers’ rights to appeal the math error adjustments.
       Management’s Response: The Director, Submission Processing, and the Director,
       CARE, W&I Division, agreed the CP 16 needs revision. Because of competing priorities
       among notices, they are unable to commit to a firm completion date for this revision.
       However, they will look to expedite the revision process. Their prioritization working
       group will include Taxpayer Advocate Service and external stakeholders, and will
       establish “TIGTA/GAO Recommendations” as one of the ranking criteria for
       prioritization.
Recommendation 4: The Director, Tax Forms and Publications, W&I Division, should add
text on Form 1040 Line 74 “Amount You Owe” instructing taxpayers to include the amount of
estimated tax penalty from Line 75. Consideration should be given to reversing the order of
these lines on the Form 1040 to make the calculation process easier and more logical to
taxpayers. Similar changes should be made to Form 1040A Line 47.
       Management’s Response: IRS management disagreed with our recommendation,
       and stated there is not sufficient room to add text from the instructions for Line 74 to the
       front of Form 1040 advising taxpayers to include the estimated tax penalty from Line 75.
       The additional instructions would force a reduction in the font size of the reference on

                                                                                             Page 9
                   The Clarity of Math Error Notices Has Improved, but Further
                       Changes Could Enhance Notice Clarity and Reduce
                                      Unnecessary Notices



       “how to pay,” a message impacting a much larger number of taxpayers than those
       computing estimated tax penalty. In addition, IRS management believes that reversing
       the line order would be counterproductive, resulting in increased confusion for
       93 percent of the approximately 56 million Form 1040 filers, and 98.5 percent of the
       approximately 12 million Form 1040A filers who do not calculate their estimated tax
       penalty. Management added that the affected taxpayers would not have received the
       notice if they had properly followed the instructions contained in the instruction booklet
       for Form 1040.
       Office of Audit Comment: We disagree with management’s decision to not make our
       recommended changes to Forms 1040 and 1040A. We believe there is sufficient room on
       these forms for the changes we recommend as illustrated in Figure 4 and Appendix V of
       our report. We agree that, for Form 1040, the font size of the reference on “how to pay”
       would need to be reduced or changed. However, reduced or changed font sizes are used
       elsewhere on Form 1040. For example, there are reduced font sizes on lines 24, 38b, and
       69 and the statement on the signature line (jurat statement).
Recommendation 5: Until sufficient changes are made on Forms 1040 and 1040A to instruct
taxpayers to include the estimated tax penalty in the total amount of taxes they owe, the Director,
Customer Account Services, W&I Division, should ensure ERS employees perform research and
suppress notices from going to taxpayers who paid the proper amounts (amount of tax owed plus
estimated tax penalty).
       Management’s Response: The Director, Submission Processing, W&I Division,
       stated that requiring research by ERS employees is not practical due to the additional cost
       in both processing time and labor. However, the Director will explore the possibility of
       establishing a systemic solution in the IRS’ computer routines that will suppress the
       notice when a taxpayer actually paid the proper amount of tax, including the estimated
       tax penalty.
       Office of Audit Comment: We believe the IRS’ alternative corrective action should
       reasonably suffice to prevent unnecessary notices from being issued to taxpayers.


Math Error Notices Sent to Many Business Taxpayers Need
Improvement

To determine whether the IRS’ efforts to improve notices sent to business taxpayers were
effective, we reviewed revised notices issued to 75 business taxpayers during 2005. We also
reviewed unrevised notices that were issued to another 17 business taxpayers during 2005.
(Because these notices are yet to be revised, we are not commenting on the presentation of math
error information in these notices.)

                                                                                           Page 10
                  The Clarity of Math Error Notices Has Improved, but Further
                      Changes Could Enhance Notice Clarity and Reduce
                                     Unnecessary Notices



Overall, the revised notices provided adequate descriptions of the taxpayers’ errors. However,
we found the design and presentation of some of these notices to be less clear than the notices
issued to individual taxpayers. Again, the notice revisions were assigned to various subject
matter experts and subsequent quality review did not identify the problems with the notices. In
addition, taxpayers’ rights to appeal math error adjustments were not clearly communicated on
unrevised notices.

TPNC 08

Nonprofit organizations paying wages in CY 2004 but reporting no Social Security and/or
Medicare taxes on their Employer’s Quarterly Federal Tax Returns (Form 941) and failing to
check the box indicating the wages were not subject to Social Security and/or Medicare taxes
received an inaccurately worded and formatted notice. Line 8 of Form 941 provides a check box
for these taxpayers to check if their wages paid were not subject to these taxes. If taxpayers
omitted checking this box, their returns were routed to the Error Resolution function. IRS
employees would resolve the error by entering a TPNC 08 to the ERS which would generate a
notice to the taxpayers with the following text:
   Non-profit organization [sic] became liable for Social security [sic] and/or Medicare taxes
   effective on 01-01-1984. Since we found no check mark entry in the box on line 4 [emphasis
   added] or other indication that the wages were not subject to social security [sic] and/or
   Medicare taxes, we have computed the taxes and adjusted your Form 941 accordingly.
IRS management was unaware of both the erroneous reference to line 4 and the capitalization
and spelling errors on this notice. The erroneous reference to line 4 is confusing to taxpayers and
the capitalization and spelling errors negatively impact the IRS’ professional image. We brought
the erroneous line item to the IRS’ attention and management initiated immediate corrective
action. As of June 1, 2005, this notice had been issued to 470 taxpayers.

Taxpayer rights to appeal an IRS math error adjustment

Math error notices sent to taxpayers filing U.S. Corporation Income Tax Return (Form 1120),
U.S. Income Tax Return for Estates and Trusts (Form 1041), Farmers’ Cooperative Association
Income Tax Return (Form 990-C), and Exempt Organization Business Income Tax Return
(Form 990-T) did not clearly communicate the taxpayers’ rights to appeal the math error
adjustments. Internal Revenue Code Section 6213(b)(2)(A) allows taxpayers 60 days from the
date of a math error notice to request abatement of the additional tax specified in the notice.
In the 2003 Annual Report, the IRS Taxpayer Advocate emphasized the IRS must provide clear
guidance to taxpayers about their rights to request abatement of math error adjustments. The IRS
agreed to implement changes in notice language on the rights to appeal by January 2005, stating

                                                                                           Page 11
                  The Clarity of Math Error Notices Has Improved, but Further
                      Changes Could Enhance Notice Clarity and Reduce
                                     Unnecessary Notices



it recognized the importance of this effort and would make every effort to ensure timely
implementation.
Math error notices for these forms had not been revised as of the date of our review. Rather than
a clear explanation of the taxpayers’ appeal rights, these notices included a “stuffer” entitled
Interest and Penalty Information. Along with information on penalties and interest, the stuffer
contained information in small print on the back informing taxpayers that if they wanted to
appeal the adjustment they must do so in writing, and that the IRS would notify the taxpayers if
it did not accept their written explanations. As of June 14, 2005, over 43,600 math error notices
had been sent to taxpayers filing these forms.


Recommendations
Recommendation 6: Along with changes already made or being made to text associated with
TPNC 08, the Director, Customer Account Services, W&I Division, should ensure changes are
made to correct spelling and capitalization errors.
       Management’s Response: IRS management agreed that changes were needed to the
       text associated with TPNC 08 and the corrections were made when they were brought to
       management’s attention by the TIGTA.
Recommendation 7: The Director, Customer Account Services, W&I Division, should
ensure taxpayers’ rights to appeal math error adjustments are clearly explained to taxpayers on
math error notices associated with Forms 1120, 1041, 990-C and 990-T.
       Management’s Response: The Director, Submission Processing, W&I Division,
       will coordinate the addition of appropriate language to math error notices that explains
       the taxpayers’ rights to appeal math errors identified on their tax returns by the IRS. The
       additional language will also be added to all math error notices issued on business tax
       returns meeting math error criteria. The new language will be strategically placed on the
       notice to ensure that taxpayers are informed of their right to appeal.


Internal Revenue Service Employee Errors Resulted in Inappropriate
Notices to Taxpayers Filing Forms 940

To determine whether IRS employees were appropriately resolving errors on tax returns and
sending appropriate notices, we performed analyses of steps taken by Error Resolution function
employees to resolve errors on certain high volume business and individual tax returns. Overall,
we found employees properly resolved most errors on Forms 1040, 1120, and 941.



                                                                                           Page 12
                        The Clarity of Math Error Notices Has Improved, but Further
                            Changes Could Enhance Notice Clarity and Reduce
                                           Unnecessary Notices



However, we found over one-third of the taxpayers included in our review, who received an
error notice related to their Employer’s Annual Federal Unemployment (FUTA) Tax Return
(Form 940), were sent inappropriate notices. We selected a statistical sample of 97 Forms 940
for which taxpayers were sent an error notice between December 8 and December 30, 2004.7 Of
97 error notices issued, 37 (38 percent) were inappropriate. Twenty-three notices contained a
very general explanation of the taxpayer’s error when a more specific explanation was available
and should have been sent, and 14 notices were sent in error because the taxpayers’ calculations
were acceptable.
We determined there were at least two probable causes for these inappropriate notices. First, the
Internal Revenue Manual (IRM) did not provide Error Resolution employees specific
instructions on the appropriate TPNC to input to address the error situations on the returns
included in our review. Job aids available to employees gave suggestions regarding the most
appropriate TPNC to use; however, Error Resolution managers hold the IRM to be more
authoritative. Second, the significant error rate on these returns during this time period had not
been identified by Error Resolution function quality review employees.
We determined a significant number of these erroneous notices were issued by a single employee
in one of the two IRS Submission Processing Centers that process these types of tax returns.
However, even after eliminating this one employee’s cases from our statistics, 18 percent of the
notices issued were inappropriate. Had quality review identified these inappropriate notices, this
employee as well as other Error Resolution function employees could have received feedback to
allow them to avoid similar errors. Our sample was statistically valid for the population of
notices issued during this time period in December 2004, but not for the population of notices
issued throughout the year. However, based on the results of our samples and the number of
notices issued to taxpayers filing Forms 940 in the last calendar year, we believe a significant
number of taxpayers filing Forms 940 during 2005 could be sent inappropriate notices.


Recommendation
Recommendation 8: The Director, Submission Processing, Customer Account Services,
W&I Division, should provide specific instructions and training to appropriate Error Resolution
function quality review employees and tax examiners regarding the appropriate notices to be sent
to taxpayers making errors on Forms 940. Emphasis should be given to the need to use the
TPNC which provides the most specific description of the taxpayers’ errors.
           Management’s Response: The Director, Submission Processing, W&I Division,
           will include additional instructions in the IRM for Error Resolution function employees
           working Forms 940 which will detail specific guidance for using the most appropriate

7
    Our sample was selected from returns filed in both the Ogden and Cincinnati Submission Processing Centers.


                                                                                                           Page 13
          The Clarity of Math Error Notices Has Improved, but Further
              Changes Could Enhance Notice Clarity and Reduce
                             Unnecessary Notices



TPNC. The importance of using the most specific TPNC will be emphasized during
annual training for both tax examiners and quality review employees.




                                                                            Page 14
                      The Clarity of Math Error Notices Has Improved, but Further
                          Changes Could Enhance Notice Clarity and Reduce
                                         Unnecessary Notices



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the changes the Internal Revenue
Service (IRS) is making to the math error process are having a positive effect on compliance by
clearly communicating errors to taxpayers, including clearly explaining their appeal rights.
To accomplish this objective, we:

I.      Identified and evaluated the changes planned to clarify math error notices.
        A. Reviewed the Taxpayer Advocate Report to identify changes the IRS stated would be
           implemented to clarify the math error notices.

        B. Reviewed the results of the study performed by the Office of Research to identify any
           recommended changes to the math error notices.
        C. Discussed with the Notice Gatekeeper and Program Analysts for the Individual
           Master File (IMF)1 and Business Master File (BMF)2 which notices were changed and
           what the specific changes were. We also determined what other notices are scheduled
           for revision.
II.     Determined whether Math Error Notices sent to taxpayers adequately explain the
        taxpayers’ errors and clearly define the taxpayers’ appeal rights.
        A. Reviewed all Math Error Notices revised by the IRS to determine whether the notices
           adequately explain the taxpayers’ errors and clearly define the taxpayers’ appeal
           rights.
        B. Selected a judgmental sample3 of 140 IMF and 75 BMF notices being sent to
           taxpayers and reviewed the notices to determine whether they adequately explained
           the taxpayers’ errors and clearly defined the taxpayers’ appeal rights. (We also
           included in our sample 17 BMF notices that had not been revised).



1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  Since the notices remain consistent, a judgmental sample was used for this step. We wanted to sample a cross
section of notices, and we did not expect to make any projections from our sample results. We selected our sample
at random from a population of 1,261 IMF notices in the Error Resolution quality review function on April 5, 6, 12,
and 13, 2005, and from a population of 218 BMF notices in the quality review function on March 22 and 23, 2005.

                                                                                                           Page 15
                      The Clarity of Math Error Notices Has Improved, but Further
                          Changes Could Enhance Notice Clarity and Reduce
                                         Unnecessary Notices



        C. Developed a computer program to identify all IMF returns where the taxpayers
           calculated the Estimated Tax Penalty, had a balance due, and received a math error
           notice with Taxpayer Notice Code4 (TPNC) 299.5 We validated the returns identified
           by our computer run by researching 46 of the accounts on the Integrated Data
           Retrieval System (IDRS).6
        D. Reviewed a statistical sample of IMF and BMF taxpayer accounts for which Math
           Error Notices were sent to determine if the proper notice was used.
             1. Prepared a computer request to select IMF and BMF returns that went to the Error
                Resolution System (ERS) to identify the Error Code that caused the return to be
                routed to the ERS.
             2. From the computer request in Step D.1., selected a statistical sample of IMF and
                BMF returns that received a math error notice between December 8, 2004, and
                December 30, 2004.7 The following statistical samples were pulled from the
                respective populations:
                          Return            Sample Size       Population
                          IMF 1040          190               5,967
                          BMF 940            97                 191
                          BMF 941           179               1,9658
                          BMF 1120           68                  929
             3. From the statistical samples selected in Step D.2., researched the taxpayers’
                accounts on the IDRS and ordered the tax returns to determine if the TPNC used
                was appropriate based on the error on the return.




4
  Each Taxpayer Notice Code corresponds to a specifically worded paragraph to be included in a notice issued to a
taxpayer.
5
  TPNC 299 informs the taxpayer that the IRS changed the refund amount or the amount they owed because the
amount entered on the tax return was computed incorrectly.
6
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
7
  We selected returns from this date range because they were the most recently processed returns at the time we
selected our samples.
8
  We used a 95 percent confidence level, an expected error rate of 15 percent, and precision of ±5 percent.
9
  We reviewed the entire population that was available for these returns.

                                                                                                          Page 16
                The Clarity of Math Error Notices Has Improved, but Further
                    Changes Could Enhance Notice Clarity and Reduce
                                   Unnecessary Notices



II.   Determined whether changes were made to the training offered to Accounts Management
      employees to better educate them concerning taxpayer’s rights to appeal math error
      adjustments.
      A. Interviewed management, employees, and training coordinators in the Error
         Resolution function to identify any changes that were made to the training concerning
         taxpayer’s rights for math error notices.
      B. Reviewed the training material for Accounts Management to determine if changes
         have been made to more clearly address taxpayer’s rights to appeal math error
         adjustments.




                                                                                      Page 17
                 The Clarity of Math Error Notices Has Improved, but Further
                     Changes Could Enhance Notice Clarity and Reduce
                                    Unnecessary Notices



                                                                              Appendix II

                 Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Richard J. Dagliolo, Director
Kyle R. Andersen, Audit Manager
Robert M. Jenness, Acting Audit Manager
L. Jeff Anderson, Lead Auditor
W. George Burleigh, Senior Auditor
Ali A. Vaezazizi, Auditor
Layne D. Powell, Information Technology Specialist




                                                                                      Page 18
                The Clarity of Math Error Notices Has Improved, but Further
                    Changes Could Enhance Notice Clarity and Reduce
                                   Unnecessary Notices



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Submission Processing, Wage and Investment Division, SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Field Director, Submission Processing (Cincinnati) SE:W:CAS:SP:C
Field Director, Submission Processing (Fresno) SE:W:CAS:SP:F
Field Director, Submission Processing (Kansas City) SE:W:CAS:SP:KC
Field Director, Submission Processing (Ogden) SE:W:CAS:SP:O
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Wage and Investment Division SE:W:S:W




                                                                                   Page 19
                     The Clarity of Math Error Notices Has Improved, but Further
                         Changes Could Enhance Notice Clarity and Reduce
                                        Unnecessary Notices



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:

•   Taxpayer Rights and Entitlements – Potential; 2,294,762 taxpayers (pages 3, 11 and 13).

Methodology Used to Measure the Reported Benefit:

To determine the numbers of taxpayers affected, we generally used Internal Revenue Service
(IRS) records to determine the volumes of notices issued during 2004 for which we
recommended changes. To determine the number of taxpayers inappropriately receiving
Taxpayer Notice Code (TPNC)1 299,2 we developed a computer program to identify all tax
returns posted to the Individual Master File3 during the current year that reported an estimated
tax penalty, had a balance due amount, and a TPNC 299.
    − TPNCs 284, 285, 286, 287, 288, 289, 290, 291, 292, 293,
      653, 701, 702, 741, 743, 745 and 7484 issued to taxpayers filing
      individual income tax returns:                                                              846,913
    − TPNCs 251, 252, and 2955 issued to taxpayers filing
      individual income tax returns:                                                           1,395,712




1
  Each TPNC corresponds to a specifically worded paragraph to be included in a notice issued to a taxpayer.
2
  Informs the taxpayer that the IRS changed the refund amount or the amount they owed because the amount entered
on the tax return was computed incorrectly.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  These TPNCs inform taxpayers that the IRS changed amounts on their returns related to the Earned Income Credit.
5
  These TPNCs inform taxpayers that the IRS changed amounts on their returns related to the Child Tax Credit or
Additional Child Tax Credit.

                                                                                                        Page 20
                      The Clarity of Math Error Notices Has Improved, but Further
                          Changes Could Enhance Notice Clarity and Reduce
                                         Unnecessary Notices



    − TPNCs 299 inappropriately issued to taxpayers filing
      individual income tax returns with estimated tax penalties:                                   8,0306
    − TPNCs 087 issued to taxpayers filing
      Employer’s Quarterly Federal Tax Returns (Form 941):                                            470
    − Math Error Notices issued to taxpayers filing
      U.S. Corporation Income Tax Returns (Form 1120),
      U.S. Fiduciary Income Tax Returns (Form 1041),
      Farmers’ Cooperative Association Income Tax Return (Form 990-C),
      Exempt Organization Business Income Tax Return (Form 990-T):                                43,600
    − Inappropriate math error notices issued to taxpayers in our sample of
      97 taxpayers receiving math error notices for Employer’s Annual
      Federal Unemployment (FUTA) Tax Return (Form 940):                                               37
    We added all these figures together to determine the total potential number of taxpayers for
    which taxpayer rights and entitlements could be affected.
    (846,913 + 1,395,712+ 8,030 + 470 + 43,600 + 37= 2,294,762)




6
  This number is based on the number of notices inappropriately issued in the prior year. The number in the draft
report was 3,200 which represented notices inappropriately issued during the current year as of June 3, 2005.
7
  Informs taxpayers that the IRS changed amounts on their returns related to Social Security or Medicare taxes.




                                                                                                            Page 21
                  The Clarity of Math Error Notices Has Improved, but Further
                      Changes Could Enhance Notice Clarity and Reduce
                                     Unnecessary Notices



                                                                                  Appendix V

      The Treasury Inspector General for Tax
Administration’s Proposed Changes to U.S. Individual
         Income Tax Return (Form 1040A)
“Amount You Owe” Section of Form 1040 A as Currently Formatted




Source: 2004 Form 1040A.

“Amount You Owe” Section of Form 1040A As Proposed by TIGTA




Source: Treasury Inspector General for Tax Administration’s Proposed Revisions to Form 1040A.
                                                                                            Page 22
     The Clarity of Math Error Notices Has Improved, but Further
         Changes Could Enhance Notice Clarity and Reduce
                        Unnecessary Notices



                                                     Appendix VI

Management’s Response to the Draft Report




                                                             Page 23
The Clarity of Math Error Notices Has Improved, but Further
    Changes Could Enhance Notice Clarity and Reduce
                   Unnecessary Notices




                                                        Page 24
The Clarity of Math Error Notices Has Improved, but Further
    Changes Could Enhance Notice Clarity and Reduce
                   Unnecessary Notices




                                                        Page 25
The Clarity of Math Error Notices Has Improved, but Further
    Changes Could Enhance Notice Clarity and Reduce
                   Unnecessary Notices




                                                        Page 26
The Clarity of Math Error Notices Has Improved, but Further
    Changes Could Enhance Notice Clarity and Reduce
                   Unnecessary Notices




                                                        Page 27
The Clarity of Math Error Notices Has Improved, but Further
    Changes Could Enhance Notice Clarity and Reduce
                   Unnecessary Notices




                                                        Page 28
The Clarity of Math Error Notices Has Improved, but Further
    Changes Could Enhance Notice Clarity and Reduce
                   Unnecessary Notices




                                                        Page 29
